JOHN CREUZOT
CRIMINAL DISTRICT ATTORNEY
DALLAS COUNTY, TEXAS
September 27, 2021
Scott Harris, Clerk of the Court
Supreme Court of the United States
Office of the Clerk
1 First Street, N.E.
Washington, D.C. 20543
Re:

Tyrone Cade v. Texas, No. 21-5561

Dear Mr. Harris:
This letter is to request a 31-day extension of time, up to and including November
1, 2021, in which to file a brief in opposition in the above-styled cause. The Court
docketed the petition for writ of certiorari on September 1, 2021. Respondent is
seeking this extension due to the undersigned counsel’s capital docket, non-capital
docket, post-conviction DNA-testing docket, and other work-related obligations.
Thank you for your consideration of this matter.
Sincerely,
/s/ Johanna H. Kubalak_
Johanna H. Kubalak
Assistant District Attorney, Appellate Division
Dallas County District Attorney’s Office
(214) 653-3642
cc:

Joseph J. Perkovich, Phillips Black, Inc.
j.perkovich@phillipsblack.org

Frank Crowley Courts Building, 133 N. Riverfront Blvd., LB-19, Dallas, Texas 75207-4399 | (214) 653-3625

